Audit of the NARANet Server Upgrade Project


        OIG Audit Report No. 11-06


            November 30, 2010
Table of Contents


Executive Summary ...................................................................................... 3

Background ................................................................................................... 5

Objectives, Scope, Methodology .................................................................. 6

Audit Results ................................................................................................. 7

Attachment 1 – Monthly Status Report Template .................................. 18

Appendix A – Acronyms and Abbreviations ........................................... 19

Appendix B - Management’s Response to the Report ............................ 20

Appendix C - Report Distribution List ..................................................... 21
                                                                    OIG Audit Report No. 11-06


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) completed an audit of the NARANet Server Upgrade (NSU) Project. The purpose
of this project was to upgrade the server hardware and software infrastructures of the
current NARANet system installed across NARA. This upgrade was necessary because
the current system was at risk of failure due to outdated hardware and unsupported
software. The current system is based on a Novell environment, which includes
platforms and software for Novell NetWare 1, GroupWise 2, eDirectory, and ZenWorks.
During this audit, we assessed whether the project was developed in accordance with
NARA requirements and system development was adequately managed and monitored to
ensure requirements were met in the most economical and efficient manner.
Additionally, the audit focused on the decision to upgrade to the latest versions of the
Novell products.

The future of the Novell Corporation and its products has long been debated. Its market
share for network operating systems has been declining since the mid-1990’s. Recently,
the company has been under pressure from what has been reported as an unsolicited and
unwelcomed buyout bid. The bid was turned down; however, based on trade articles,
questions remain about the future of Novell’s current suite of products, including the
SUSE Linux platform, the target environment for the NSU Project. The transition to this
environment for NARA will only stabilize its information technology (IT) environment
and may not meet NARA’s need for a flexible, robust, and scaleable infrastructure
system. Given the evolving nature of IT, another transition may be necessary resulting in
the expenditure of additional resources to better stabilize NARA’s IT infrastructure.

Our review found that this project was not adequately managed and monitored to ensure
requirements were met in the most economic and efficient manner. Specifically, we
found that while the project development met most of NARA requirements for a
Technology Refresh Investment, planning was not adequate and critical stakeholders
were not included in the decision to continue with Novell. Further, a comprehensive
analysis of alternatives was not completed for this project. Specifically, other platforms,
which could have improved productivity and increased efficiencies, were not fully
considered during the planning of this project. Finally, monthly status reports, used by
management to monitor the project, did not accurately reflect the full cost and risks of the
project.


1
  NetWare is a network operating system developed by Novell. NetWare (version 6.5) handles NARA’s
file services, print services, software distribution, and desktop integration and management.
2
  GroupWise is a messaging and collaborative software that supports email and calendaring personal
information management. GroupWise provides NARA’s email post office management and email access
services.

                                          Page 3
                       National Archives and Records Administration
                                                             OIG Audit Report No. 11-06


By not placing a dollar limit on projects classified as Technology Refresh Investments,
NARA policy created a loophole for projects such as the NSU Project. Many critical
requirements, including adequate planning, involvement of key stakeholders, in-depth
cost benefit analysis, and analysis of alternatives, were not required for the NSU Project
since it was classified as a Technology Refresh. Therefore, despite the widely known
fact that NetWare’s anticipated lifespan was in flux, NH officials did not consider it a
priority to keep the NARANet infrastructure up-to-date, and specific strategies and plans
had not been developed for the future of the NARANet infrastructure.

As a result, the best alternative to maximize value or minimize risk may not have been
chosen, and limited resources may have been wasted. Specifically, opportunities have
been missed to switch to a new environment, which could improve efficiency,
productivity, performance, and interoperability. By staying with Novell, NARA will
continue to trail in its ability to communicate with core constituencies and fulfill its
mission and additional resources will need to be expended to update NARA’s
environment. Had NARA considered an alternative environment or platform, such as
Microsoft, only one upgrade or transition would have been necessary. Instead, NARA is
upgrading its Novell environment with the possibility of needing to transition to another
platform, resulting in the expenditure of additional funds. With adequate planning,
NARA could have avoided this $2.9 million upgrade of Novell products.

Finally, unnecessary risks have been placed on NARA’s IT infrastructure and alternative
solutions are limited. Specifically, the hardware platforms being used to run the current
Novell software are past the end of their useful lifecycle, thereby creating increased
operational risk for hardware failures and consequent business services disruptions that
such failures would entail. This unstable environment created by outdated hardware has
limited NARA’s ability to seek other alternatives, until the environment has been
stabilized.

To mitigate these risks and prevent similar occurrences, we made seven
recommendations to aid in the completion of the NSU Project and improve NARA’s IT
Investment Management Process.




                                        Page 4
                     National Archives and Records Administration
                                                                     OIG Audit Report No. 11-06


Background

In 2005 and 2006, the OIG issued several audit products 3 related to the last Novell
NetWare and GroupWise upgrades. These audit products highlighted significant
concerns related to these upgrades. Specifically, in March 2005, the OIG found that the
“go” decision to upgrade from Novell Netware 4.11 to 6.5 and GroupWise 5.5 to 6.5 was
made without comprehensive adherence to the requirements of NARA Directive 801.
The OIG also found that an inadequate Analysis of Alternatives was conducted for the
Novell software upgrade project. In fact, NARA officials did not analyze the best
alternatives available, and the analysis never disclosed the fact, widely known in the IT
community, that Novell was experiencing dwindling support from third-party software
developers, and was planning to phase out its proprietary Netware operating system.

Later, in August 2006, the OIG reported 4 that upgrading Novell Netware and GroupWise
to version 6.5 was only an interim solution for upgrading NARA’s computer network
infrastructure of obsolete software products because Novell was phasing out its
proprietary Netware operating system. The Novell/GroupWise solution, which was
estimated to provide an additional two to four years of network stability, would allow NH
management to plan for the migration to another operating system and e-mail platform.
Thus, the OIG recommended that the Assistant Archivist for Information Services
(NH)/Chief Information Officer (CIO) should immediately begin planning for the
migration from Novell Netware to another type of operating system software, e.g.,
Microsoft or Linux. However, management did not concur with this recommendation,
stating that NARA has identified no business need to immediately begin planning a
migration from Novell Netware to another type of operating system.

Enacted in 1996, the Clinger-Cohen Act required the head of each agency to design and
implement a process for maximizing the value, and assessing and managing the risks of
IT acquisitions. In response to the Clinger-Cohen Act, NARA developed the NARA 801
Directive, Capital Planning and Investment Control (CPIC). The purpose of this
directive was to establish NARA’s review policy for IT investment management. The
directive and the associated CPIC Guide defined the processes and activities necessary to
manage NARA’s CPIC Process, which should allow NARA to optimize the use of
limited IT resources, address NARA’s strategic needs, and comply with applicable laws
and guidance.


3
 These included OIG Report No. 05-10, Review of NARA’s Information Technology Investment
Management Decide Process Accomplished for the Novell Software Upgrade Project; Advisory Report No.
06-14, OIG Monitoring of the Novell Netware/GroupWise Upgrade Project; Advisory Report No. 06-15
OIG Monitoring of the Novell Netware/GroupWise Upgrade Project; and OIG Report No. 06-09, Review of
NARA’s Information Security Program.
4
    OIG Report No. 06-09, Review of NARA’s Information Security Program.

                                             Page 5
                          National Archives and Records Administration
                                                              OIG Audit Report No. 11-06


The Clinger-Cohen Act also assigned responsibility to the Chief Information Officer
(CIO) for developing, maintaining, and facilitating the implementation of sound and
integrated information technology architecture for the agency and promoting the effective
and efficient design and operation of all major information resources management
processes for the agency. Additionally, the CIO was assigned responsibility to advise the
head of the agency regarding whether to continue, modify, or terminate a program or
project.


Objectives, Scope, Methodology

The objective of this audit was to determine whether the NARANet Server Upgrade
Project was developed in accordance with NARA requirements, and whether system
development was adequately managed and monitored to ensure requirements were met in
the most economical and efficient manner. Specifically, we sought to determine whether
the project proposal, approval, and management were completed in accordance with
NARA 801 requirements, and whether alternative products and solutions were fully
considered.

To accomplish our objective, we examined applicable laws, regulations, and NARA
guidance, including (a) the Clinger-Cohen Act of 1996; (b) NARA Directive 801, Capital
Planning and Investment Control (CPIC); and (c) Supplement to NARA Directive 801,
Capital Planning and Investment Control Guide, dated November 2009. In addition, we
reviewed prior audit reports related to the previous upgrade of the NARA network. We
met with NH officials and other personnel involved with the NARANet Server Upgrade
Project and reviewed documentation related to the project, including the Business Case,
CIO Approval Memorandum, Project Plan, and Monthly Status Reports. Finally, we
reviewed contracting documents for the services related to this project. These included
the Statement of Work and the following documents prepared by the contractor, Capstone
Corporation: Proposal for Work; Cost Proposal; and Bill of Materials.

Our audit work was performed at Archives II in College Park, MD between January and
September 2010. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                        Page 6
                     National Archives and Records Administration
                                                                    OIG Audit Report No. 11-06


Audit Results

1. Intent of Clinger-Cohen Act Not Met
While the NARANet Server Upgrade (NSU) Project followed most of the requirements
outlined in NARA 801 Directive, Capital Planning and Investment Control (CPIC), it did
not meet the intent of the Clinger-Cohen Act. The Clinger-Cohen Act requires agencies
to design and implement a process for IT acquisitions that manages risk, informs senior
management of progress, and facilitates the implementation of sound and integrated
information technology architecture. The NSU Project was not subject to these
requirements since it was classified as a Technology Refresh 5, which under NARA 801 is
subject to less scrutiny. Also, despite the widely known fact that NetWare’s anticipated
lifespan was in flux, NH officials did not consider keeping the NARANet infrastructure
up-to-date a priority, and specific strategies and plans had not been developed for the
future of the NARANet infrastructure. As a result, unnecessary risks have been placed
on the NARA’s IT infrastructure.

The Clinger-Cohen Act requires the head of each agency to design and implement a
process for maximizing the value of, and assessing and managing the risks of information
technology acquisitions. This process should provide for the selection, management, and
evaluation of such IT investments. Also, this process should provide the means for senior
management of the agency to obtain timely information regarding the progress of the
investment. The Act also requires the CIO to annually assess the achievement of
requirements and performance goals established for information resources management,
and develop strategies and specific plans to rectify any deficiency in meeting those
requirements or goals.

In response to this Act, NARA developed the NARA 801 Directive, which established
the review policy for IT investment management. This directive and the associated guide
defined the processes and activities necessary to manage NARA's CPIC Process. This
process is a structured approach to managing NARA’s IT investments to ensure they
support a business need and align with NARA's mission, strategic goals, and objectives.
The CPIC Process also strives to minimize risks and maximize returns throughout the
investment's life cycle by relying on a systematic selection, control, and continual
evaluation processes to ensure that the investments' objectives are met efficiently and
effectively. The process strives to define accountability, add value, be pragmatic, assess
progress, and generate decisions. Finally, the CPIC Process should ensure that all NARA
IT initiatives are properly planned, costed, reviewed, and approved by senior staff before
significant funds are expended.


5
  According to NARA 801, Technology Refresh Investments consist of a hardware or software technology
refresh that do not significantly change existing business processes.

                                           Page 7
                        National Archives and Records Administration
                                                                      OIG Audit Report No. 11-06


We found that the NARANet Server Upgrade (NSU) Project 6 met the NARA 801
requirements for a Technology Refresh Investment, which under NARA 801 is subject to
less review and scrutiny. Consequently, we found that planning for the project did not
begin early enough and critical stakeholders were not included in the decision to go
forward with the project. In other words, the project was not adequately planned and
vetted prior to its approval. Consequently, it did not meet the intention of the Clinger-
Cohen Act.

Despite the 2006 OIG recommendation to begin planning for the next upgrade, NARA
management did not begin planning the upgrade until middle of 2009. Specifically, in a
previous audit 7, the OIG recommended that the Assistant Archivist for Information
Services (NH)/Chief Information Officer (CIO) immediately begin planning for the
migration from Novell Netware to another type of operating system software, e.g.,
Microsoft or Linux. In their formal response, management did not concur with this
recommendation, stating that NARA had not identified a business need to immediately
begin planning a migration from Novell Netware to another type of operating system.
However, in meetings with NARA officials and the former Archivist, there was
agreement that upgrading the Novell operating system and electronic mail software to
version 6.5 was only an interim solution, and that planning would begin immediately for
the migration from Novell Netware to another type of operating system. Also, the need
to start planning for a move to another operating system and e-mail platform was
documented in the 2006 Netware/GroupWise Upgrade Product Plan; however, planning
for the next upgrade was not started until 2009.

We also found that other stakeholders expressed concerns with the current environment;
however, these stakeholders were not appropriately notified and involved in the
development of the upgrade project. Specifically, in 2008 the Directors of the
Presidential Libraries expressed concerns with the Novell/GroupWise system. One of
their concerns was interoperability problems with their strategic partners. The Directors
suggested an independent analysis of the Novell platform that objectively evaluated the
positive and negative aspects of a conversion. In the former Archivist’s response, he
stated that planning would begin for the next major upgrade and they will look at the
costs and benefits of Novell versus Microsoft, as well as any other options available in
the marketplace. The former Archivist stated “these decisions will not be made in a
vacuum and you will be consulted.” Despite their concerns, critical stakeholders were
not engaged in the planning for the next major upgrade until a decision had already been
made to continue with Novell.




6
 The target environment for this upgrade project is to run the most recent release of Novell Open
Enterprise Server [OES] version 2 on an open, industry standard Linux platform (SUSE Linux Enterprise
Server 10) and to upgrade to the latest version of GroupWise.

7
    OIG Report No. 06-09, Review of NARA’s Information Security Program, August 8, 2006.

                                             Page 8
                          National Archives and Records Administration
                                                                      OIG Audit Report No. 11-06


Finally, a forward plan or an IT Roadmap 8 for the NARANet infrastructure was not
established. Specifically, strategies and specific plans to improve NARA’s IT
infrastructure beyond this critical upgrade were not developed as part of the CIO’s annual
strategic planning. The need to upgrade NARA’s IT infrastructure was included in NH’s
Strategic Plan. However, specific strategies or plans to stay on top of the evolving nature
of technology were not included in the plan. The plan simply stated that NH plays a
critical role in support of NARA's vision and mission and must adapt to changes in the
current environment and prepare for the future. When asked about the future of NARA’s
IT infrastructure and whether or not platforms other than Novell will be considered, the
Deputy CIO stated that NH was open to different options.

A forward plan for NARANet’s infrastructure was not developed because NH officials
did not consider on keeping NARANet up-to-date a priority. Despite the widely known
fact that NetWare’s anticipated lifespan has been in flux and Novell had been losing
market share since the mid-1990s, NARA officials did not see a business need to migrate
from Novell Netware to another type of operating system. Also, according to one NARA
official, there has never been a balanced assessment of the relative costs of Novell versus
Microsoft or other vendors at NARA.

Further, NARA’s IT Investment Management Process allows for projects to be classified
as a Technology Refresh. Classified as a Technology Refresh, the NSU Project was
subject to less scrutiny and review. For instance, NARA 801 allows Technology Refresh
projects to be approved by the Architect Review Board (ARB) via email and approval
from the Information Technology Executive Committee (ITEC) is not required. Also,
NARA 801 does not require the Archivist to review and approve Technology Refresh
projects. IT governance, such as this, provides the framework for decision-making,
transparency, and accountability, thereby ensuring IT initiatives meet the NARA’s
strategic and business objectives.

Additionally, specific strategies and plans were not developed to achieve or rectify IT
deficiencies, such as the NARANet infrastructure. Instead, NH’s Strategic Plan simply
stated that NH must provide information products and services that meet their customers'
requirements. Without specific details, it appeared that NARA lacked a true vision or
strategy to develop and maintain the agency’s IT infrastructure.

Consequently, unnecessary risks have been placed on the NARA’s IT infrastructure.
Specifically, the hardware platforms being used to run the current Novell software are
past the end of their useful lifecycle, thereby creating increased operational risk for
hardware failures and consequent business service disruptions that such failures would
entail. New servers could be procured to mitigate the risk of hardware failures; however,
new hardware platforms are incompatible with the outdated versions of NetWare and



8
  An IT Roadmap matches short-term and long-term goals with specific technology solutions to help meet
those goals.

                                           Page 9
                        National Archives and Records Administration
                                                                        OIG Audit Report No. 11-06


GroupWise currently in use across NARA. Further, the general support 9 for Novell
NetWare 6.5, the current server operating system, was scheduled to end in March 2010.
General support and extended support had already ended for GroupWise 6.5 (May 2007
and May 2009 respectively). Therefore, many NARANet servers have reached the end of
support, causing a great operational risk to NARA’s IT infrastructure.

According to a NARA official, the commitment to Novell keeps NARA from adopting
the best software on the market because of compatibility issues or long periods of testing
which often involve expensive patches and rework. The Novell/GroupWise system is not
widely used in industry or government causing potential risks of interoperability
problems with strategic partners. This conflicts with NARA’s strategic goal to be
attentive to customers’ information technology requirements, and ensure that NARA’s IT
infrastructure is optimized to support those requirements. This also conflicts with
NARA’s goal to support an IT infrastructure that is flexible, robust, secure, and scaleable,
and that serves NARA’s customers, both internal and external.

Recommendation 1

We recommend the CIO continue to closely monitor the NARANet Server Upgrade
project to ensure implementation deadlines are met and risks are minimized.

Management Response

Management concurred with recommendation.


Recommendation 2

We recommend the CIO develop an IT Roadmap or forward plan to include specific
strategies and processes to regularly assess, upgrade, and maintain the NARANet
infrastructure.

Management Response

Management concurred with recommendation.




9
 Novell’s general support consists of installation and configuration support, enhancements requests,
patched and fixed, and security updates.

                                            Page 10
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 11-06


2. Alternatives Not Fully Considered
Even though two alternatives were described in the NSU’s Business Case 10, we found
that a comprehensive analysis of alternatives was not completed for this project prior to
its approval. This occurred because the project was classified as a Technology Refresh
Investment, which was not required to complete an analysis of alternatives. As a result,
NARA missed another opportunity to improve productivity and increase efficiencies by
having a homogeneous server and desktop environment. NARA may also experience
other limitations by staying with Novell, a system not widely used in industry or
government.

As stated earlier, the Clinger-Cohen Act required the head of each agency to design and
implement a process for maximizing the value and assessing and managing the risks of
the information technology acquisitions. Specifically, this process should include criteria
for prioritizing alterative information system investment projects. The process outlined
in NARA 801 required projects classified as Medium 11 and Large 12 investments to
complete a cost benefit analysis and alternatives analysis. This analysis should compare
various costs associated with an investment with the benefits it proposes to return. Both
tangible and intangible factors should be addressed and accounted for in this analysis.
Also, NARA 801 stated technical considerations as well as financial feasibility should be
used to select and eliminate alternatives. However, NARA 801 waived this in-depth
analysis for projects classified as a Technology Refresh 13.

Even though two other alternatives were described in the project’s Business Case, we
found that a comprehensive analysis of alternatives was not completed for the NSU
Project. Specifically, appropriate alternative products and solutions were not adequately
and fully considered during the planning of this project and prior to its approval by the
Assistant Archivist for Information Services/Chief Information Officer. Instead, a textual
or theoretical analysis of alternatives was prepared without a comparison based on costs
and quantifiable benefits.



10
  According to NARA 801, Business Cases are structured proposals that justify an investment for decision-
makers. Business cases should at least include costs, description of business needs, strategic alignment,
justification, risks, and assumptions.
11
  Medium IT Investments are classified as having Development Modernization and Enhancement (DME)
costs between $1 and $10 million or annual Operations and Maintenance (O&M) costs between $500,000
and $1 million.
12
  Large IT Investments are classified as having costs of at least $10 million or annual O&M costs of at
least $1 million. Also, Large Investments include financial management systems or investments that are
deemed by the CIO to be mission-critical to NARA.
13
  The minimum dollar threshold for Technology Refresh Investments is $1 and there is no maximum dollar
threshold.

                                            Page 11
                         National Archives and Records Administration
                                                              OIG Audit Report No. 11-06


As discussed in the NSU Business Case, three alternatives were reviewed for technical
and operational feasibility. One alternative proposed upgrading Netware and eDirectory,
but not upgrading the GroupWise software. However, this alternative was eliminated
because of technical problems which would require duplicate servers at the field sites.
The other alternative, which proposed migrating to Microsoft Active Directory and
Microsoft Exchange, was eliminated because NARA alleged Microsoft could not provide
migration tools necessary to prevent the loss of historical email records. Neither of these
two alternatives appeared to be advantageous to NARA or an appropriate alternative to
consider for this project.

When asked for supporting documentation of the analysis used to select the preferred
alternative, none could be provided. NARA officials could not provide detailed support
justifying the elimination of the two alternatives considered. Nor could support be
provided for not considering a switch to other server platforms and products, such as
Microsoft. In particular, we were interested in further support for NARA’s claim there
were no migration tools available to move from GroupWise to Microsoft Exchange. In
our research, we found tools and vendors available to migrate organizations from Novell
to Microsoft products. For example, a 2004 whitepaper published by Microsoft stated
that Microsoft had created a straightforward plan for migrating Netware networks to
Windows. The features, benefits, and case studies made a compelling case for existing
Novell customers to consider switching to the Windows environment. Such benefits
included increased productivity and reduced total cost of ownership.

After our request for supporting documentation of the analysis in the Business Case, NH
tasked the contractor, SAIC, to document their decision and selection of the preferred
alternative in an Information Brief or whitepaper. This whitepaper explained why NH
decided to continue using Novell products for the NARANet Server Upgrade, and why it
was decided not to migrate the agency’s email to Microsoft Exchange. The whitepaper
used two key sources to support the decision not to migrate to Microsoft Exchange: a
whitepaper titled Comparing the Cost of Email Systems 14, and a meeting with NARA’s
technical account services manager at Microsoft. The supporting whitepaper was based
on research conducted by Osterman Research, Inc, but was commissioned and sponsored
by Novell. The meeting with NARA’s Microsoft representative was informal and notes
were not taken by the NARA attendees. Further, the purpose of this meeting was to
obtain background material for a section in NH’s Strategic Plan and not to obtain
information to make an informed decision about alternatives for the NSU Project. Thus,
NARA officials cannot provide independent, reliable documentation to support that they
fully considered other alternatives or different platforms prior to approving and beginning
the NSU Project.

By not requiring the analysis of alternatives requirements and not placing a dollar limit or
threshold for Technology Refresh projects, NARA 801 created a loophole for projects
such as the NSU Project to not complete an in-depth cost benefit analysis and alternatives
14
  For a copy of the whitepaper, see:
http://www.novell.com/docrep/2009/05/Comparing%20the%20Cost%20of%20Email%20Systems_en.pdf

                                         Page 12
                      National Archives and Records Administration
                                                            OIG Audit Report No. 11-06


analysis. NARA 801 allows for the CIO to move an investment to a more appropriate
threshold level based upon identified risks, impact and/or scope. However, this
discretion was not exercised for the NSU Project. Given the size and impact of this
investment, the NSU Project would have been classified as a Medium Investment, which
would have required a full analysis of alternatives prior to its approval.

As a result, NARA officials may not have selected the best project to maximize value or
minimize risk. By not exploring other platforms or alternatives, NARA may have missed
an opportunity to improve productivity and increase efficiencies by having a
homogeneous server and desktop environment. We found several examples of other
government and non-government organizations that benefited from migrating from
Novell to Microsoft. Realized benefits included increase in productivity; reduction in
total cost of ownership; and creation of high returns on investment. By migrating to
Microsoft, these organizations also realized reduced redundancy and cost; increased
system availability and reliability; improved efficiency; and increased interoperability.
For instance, one organization found the homogeneous server environment greatly
simplified their network management and enabled total control of their desktop
environment. As a result, the organization reduced support and administration costs, and
laid the foundation to achieve significant end-user productivity gains. These examples
are not given to say that migrating to Microsoft would necessarily be better for NARA,
but highlight benefits others have reported and which have never been fully explored by
NARA.

Further, since NARA missed another opportunity to switch to a more stable environment,
limited resources may have been wasted. Instead of investing limited resources to
migrate to another environment now, we are investing in a product supported by a
company whose future has been in flux for years and recently has been offered a buy-out
from one of its shareholders, which according to some news outlets could mean the end
of Novell’s products. As the future of Novell and its current products remains unstable,
the need to migrate to another platform could become essential, requiring additional
resources for NARA to migrate or upgrade again. The increased risk of having to expend
additional resources may have been avoided had the appropriate analysis of alternatives
been conducted. NARA could have avoided the current upgrade project and put the
estimated $2.9 million towards a transition to a more flexible, robust, and scaleable
infrastructure system.

Despite the current Archivist’s support for an advanced technology infrastructure, NARA
continues with a project using the product of a company whose future remains uncertain.
By staying with Novell, NARA will continue to trail in its ability to communicate with
core constituencies and fulfill its mission. The Novell/GroupWise system is not widely
used in industry or government. Because there is less software compatible with Novell,
NARA may be stuck with inferior and problematic products, which could limit the
NARA’s ability to implement its strategic plans.




                                        Page 13
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-06


Recommendation 3

We recommend the CIO establish objective thresholds for projects classified as
Technology Refreshes to ensure alternatives for critical projects are fully reviewed and
considered prior to project approval.

Management Response

Management concurred with recommendation.


Recommendation 4

We recommend the CIO ensure alternatives are fully considered and analysis
documented when planning and executing the next NARANet Upgrade.

Management Response

Management concurred with recommendation.




                                        Page 14
                     National Archives and Records Administration
                                                                     OIG Audit Report No. 11-06


3. Project Costs Not Adequately Reported
NSU Project costs were underreported in the Monthly Status Reports. NARA 801
requires project managers to prepare regular status reports to monitor investment scope,
cost, risk, and schedule. However, total project costs were incorrectly reported because
NARA’s Control Phase of the CPIC Process did not include verification of project costs
and a formalized tracking method of IT project costs had not been established As a
result, the NSU Project costs were reported as $1.4 million, much lower than the
estimated costs of $2.9 million, and management was not aware the project’s true costs
were significantly higher than the amount ($1.25 million) approved by the CIO. Without
accurate project cost projections, appropriate decisions cannot be made and management
is not fully aware of the project status or the full project cost.

According to NARA policy, after an investment has been officially approved, the
investment moves on to the Control Phase of the CPIC Process as detailed in NARA 801.
The objective of this phase is to practice timely quality control and executive review of
IT initiatives. During this phase, the CPIC Team regularly monitors the progress of
ongoing IT investments against their projected costs, schedule, performance and
delivered benefits. According to NARA 801, these reviews should focus on ensuring that
projected benefits are being realized; cost, schedule, and performance goals are being
met; risks are minimized and managed; and the investment continues to meet
strategic needs.

As part of the Control Phase, Monthly Status Reports 15 are prepared by the Project
Manager to regularly monitor an investment's scope, cost, risk, and schedule baselines.
This process is intended to monitor and track progress and take proactive action if a
project encounters obstacles or deviates from the planned schedule or budget. The
Project Manager is responsible for maintaining all project documentation and monitoring
the financial, technical, operational, schedule, legal and contractual, and project risks.
Also, the CIO is responsible for reviewing the periodic status reports and examining any
identified risks, costs, or schedule deviations.

In our review of the NARANet Server Upgrade Project’s Monthly Status Reports from
October 2009 to January 2010, we found that the total project costs were underreported.
Specifically, the equipment costs were not included or being tracked as part of the total
project costs. Instead, the total investment cost reported on the monthly status reports
was $1,436,000, which only included labor, travel, and consulting services related to this
project. According to the Bill of Materials, a separate proposal prepared by the
contractor, Capstone Corporation, the equipment needed to complete this project totaled
over $1,432,000, with optional equipment costing between $50,000 and $75,000, which
would allow for encryption. Thereby, increasing the total project cost to over $2.9
million. This figure was significantly higher than the $1.25 million total implementation
costs reported in the project’s Business Case and approved by the CIO in August 2009.

15
     See Attachment 1 for a template of the Monthly Status Report.

                                              Page 15
                           National Archives and Records Administration
                                                              OIG Audit Report No. 11-06


This significantly higher estimated project cost was not being reported on the monthly
status reports.

Further, neither the project’s Business Case or the monthly status reports reflected other
potential risks or costs associated with this project. For example, Capstone’s Cost
Proposal stated that “continued support after completion is necessary to support this
initiative”. These continued support costs were unknown, but Capstone wanted to
provide an estimate at a later date. Also, Capstone’s Bill of Materials stated that
additional equipment costs would result from adding hardware encryption to all tape
backup units. However, neither of these risks was identified in the project’s Business
Case or status reports. Therefore, the project’s total cost could continue to grow to over
the estimated $2.9 million without management’s knowledge or approval.

During the audit, the total project cost was changed in the Monthly Status Report from
$1.4 to $2.3 million. According to the Project Manager, this new project cost includes
the cost of equipment. However, due to project and procurement delays, the project has
to be rebaselined to revise the project’s cost and schedule estimates. Previously,
implementation was to be completed by November 2010, but has now been pushed back
until March 2011.

According to the Contracting Office Technical Representative (COTR), the project costs
were not reported in the Monthly Status Reports because the equipment was
purchased directly by the government from a different vendor and was not purchased by
the operations contractor, Capstone. Therefore, the equipment was considered a onetime
cost. When asked about the additional costs alluded to in the Cost Proposal and Bill of
Materials, the COTR stated that it was still early in the project and there have been no
further discussions on these later support costs and needs.

According to NARA 801, a project’s cost baseline is established after contract award.
Therefore, it appears that NARA 801 does not take into consideration multiple contracts
for a single project. Additionally, NARA 801 does include oversight controls for
reporting project costs. Specifically, NARA 801 does not include a validation or
verification process for the Monthly Status Reports. Also, NARA 801 does not assign
responsibility to ensure the total costs and costs spent to date are accurate on the Monthly
Status Reports. Finally, a formal tracking method of individual project costs has not been
established. The CPIC Process does not include a formalized process to verify resources
spent.

As a result, Monthly Status Reports for the NSU Project did not accurately reflect the full
cost of the project and the progress of the project in meeting its goals. Further, these
status reports did not reflect that the estimated cost of the investment was significantly
higher than the amount approved by the CIO. Periodic status reports are important to the
management of this project since they should be used to identify any risk, cost, or
schedule deviation. Without the accurate project costs, appropriate decisions cannot be
made and management is not fully aware of the project status or the full project cost.

                                         Page 16
                      National Archives and Records Administration
                                                            OIG Audit Report No. 11-06


Recommendation 5

We recommend the NSU Project Manager update the total project costs reported in the
Monthly Status Reports.

Management Response

Management concurred with recommendation.


Recommendation 6

We recommend NH officials develop a formalized tracking method to accurately track
individual IT project costs and indentify the total project costs when two or more
contracts are used.

Management Response

Management concurred with recommendation.


Recommendation 7

We recommend the CIO assign responsibility to ensure the total costs and costs spent to
date are accurate on the Monthly Status Reports and add an independent verification
process to the Control Phase to verify cost figures.

Management Response

Management concurred with recommendation.




                                        Page 17
                     National Archives and Records Administration
                                                                                                     OIG Audit Report No. 11-06


           Attachment 1 – Monthly Status Report Template



                                                 Investment Name                                                                              #
Point of Contact:                                    Period of Performance:   Month       Year             Office(s):                          CPIC ID
   Start Date           O&M Date       Retirement Date      Annual Cost         Project Cost         Lifecycle Cost     Spent to Date        SDLC Phase
                                                                                                                                              Choose One

          Technical Scope and Current Status - Choos e Status                                     Risks and Issues - Choose Status
                                                                                  Risk/Issue:


                                                                                   Severity:             None             Probability:             None
                                                                              Mitigation Strategy:



                                                                                  Risk/Issue:


                                                                                   Severity:             None             Probability:             None
                                                                              Mitigation Strategy:



                                                                                  Risk/Issue:


                                                                                   Severity:             None             Probability:             None
                                                                              Mitigation Strategy:




                    Schedule Performance - Choos e Status                                       Financial Performance - Choose Status
        Activity/Milestone                 Planned            Actual              Monthly Spending:              Planned:                Actual:
                                                                              Prior Year(s) Spending         $               -   $                  -
                                                                              September-09                   $               -   $                  -
                                                                              October-09                     $               -   $                  -
                                                                              November-09                    $               -   $                  -
                                                                              December-09                    $               -   $                  -
                                                                              January-10                     $               -   $                  -
                                                                              February-10                    $               -   $                  -
                                                                              March-10                       $               -   $                  -
                                                                              April-10                       $               -   $                  -
                                                                              May-10                         $               -   $                  -
                                                                              June-10                        $               -   $                  -
                                                                              July-10                        $               -   $                  -
                                                                              August-10                      $               -   $                  -
                                                                              September-10                   $               -   $                  -
                                                                              TOTAL:                         $               -   $                  -




                                                             Page 18
                                          National Archives and Records Administration
                                                   OIG Audit Report No. 11-06


Appendix A – Acronyms and Abbreviations

ARB     Architecture Review Board
CIO     Chief Information Officer
COTR    Contracting Office Technical Representative
CPIC    Capital Planning and Investment Control
IT      Information Technology
ITEC    Information Technology Executive Committee
NARA    National Archives and Records Administration
NH      Office of Information Services
NSU     NARANet Server Upgrade
OIG     Office of Inspector General




                                 Page 19
              National Archives and Records Administration
                                                 OIG Audit Report No. 11-06


Appendix B - Management’s Response to the Report




                               Page 20
            National Archives and Records Administration
                                                         OIG Audit Report No. 11-06


Appendix C - Report Distribution List


David S. Ferriero, Archivist of the United States, N
Adrienne C. Thomas, Deputy Archivist of the United States, ND
Charles Piercy, Acting Chief Information Officer, NH
Steven Heaps, IT Policy Branch Chief, NHPL
Mary Drak, Policy and Planning Staff, NPOL




                                       Page 21
                    National Archives and Records Administration
